<html>
<title> - THE POSTAL SERVICE'S ACTIONS DURING THE 2016 CAMPAIGN SEASON: IMPLICATIONS FOR THE HATCH ACT</title>
<body><pre>[Senate Hearing 115-352]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-352

                THE POSTAL SERVICE'S ACTIONS DURING THE
          2016 CAMPAIGN SEASON: IMPLICATIONS FOR THE HATCH ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
        
        
                      U.S. GOVERNMENT PUBLISHING OFFICE                    
29-442 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>        
        
        
        
        
        
        
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
            Jennifer I. Scheaffer, Professional Staff Member
               Margaret E. Daum, Minority Staff Director
                Donald Sherman, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Lankford.............................................    15
    Senator Heitkamp.............................................    18
Prepared statements:
    Senator Johnson..............................................    23
    Senator McCaskill............................................    24

                               WITNESSES
                        Wednesday, July 19, 2017

Timm Kopp, Letter Carrier, U.S. Postal Service...................     3
William Siemer, Acting Deputy Inspector General, Office of the 
  Inspector General, U.S. Postal Service.........................     5
Adams Miles, Acting Special Counsel, Office of Special Counsel...     7
Hon. Megan J. Brennan, Postmaster General and Chief Executive 
  Officer, U.S. Postal Service...................................     9

                     Alphabetical List of Witnesses

Brennan. Hon. Megan J.:
    Testimony....................................................     9
    Prepared statement...........................................    38
Kopp, Timm:
    Testimony....................................................     3
    Prepared statement...........................................    28
Miles, Adam:
    Testimony....................................................     7
    Prepared statement...........................................    36
Siemer, William:
    Testimony....................................................     5
    Prepared statement...........................................    31

                                APPENDIX

United States Postal Service Audit Report........................    42
Office of Special Counsel Redacted Report........................    65
Responses to post-hearing questions for the Record
    Mr. Miles....................................................    88
    Ms. Brennan..................................................    91

 
                  THE POSTAL SERVICE'S ACTIONS DURING
        THE 2016 CAMPAIGN SEASON: IMPLICATIONS FOR THE HATCH ACT

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 10:22 
a.m., in room SD-342, Dirksen Senate Office Building, Hon. Ron 
Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Tester, Heitkamp, Peters, Hassan, and 
Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Now I will call to order our hearing. I 
want to welcome our witnesses. In particular, I want to thank 
my home State Wisconsinite for, first of all, having the 
courage of bringing this issue to light. I truly appreciate 
that. I know it takes some courage. And, you certainly have 
demonstrated that throughout the process. In meeting with you, 
I know you never, ever felt this was going to rise to this 
level.
    I have said enough. I really believe my written statement--
I will put that in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 23.
---------------------------------------------------------------------------
    I do want to say, though, because this issue did affect my 
State, potentially could have affected it when I was in the 
election cycle, I just want to get it on the record. I never 
made an issue of this. This was brought to light before the 
election. This has nothing to do from my standpoint personally. 
This is all about responding to a whistleblower. It is under 
our Committee's jurisdiction. We turned it over to the 
Inspector General (IG) and the Office of Special Counsel (OSC). 
They have issued their reports. And, we have the Postmaster 
General here who will respond to those reports. I think this is 
completely cooperative, and I appreciate that fact. But, we are 
just trying to highlight this because there were some systemic 
problems here that people were basically unaware of, and this 
is appearing to highlight that for other departments and other 
agencies so they do not have to deal with the same issue.
    So, again, I just appreciate Mr. Kopp from Wisconsin and 
our witnesses in terms of your testimony and your cooperative 
effort in terms of solving this particular problem.
    With that, I will turn it over to our Ranking Member.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 24.
---------------------------------------------------------------------------
    The Committee is the principal body in the Senate 
responsible for rooting out waste, fraud, and abuse in the 
Federal Government. One of the more important functions we also 
serve is promoting the effective enforcement of the Federal 
Hatch Act, which ensures that the Federal Government operates 
in a manner free from partisan political pressure, while also 
protecting the rights of Federal workers to engage in private 
political activity.
    The Hatch Act is essential to guaranteeing that Federal 
employees and all American citizens have confidence in our 
electoral process. Unfortunately, today's hearing reveals that 
the United States Postal Service (USPS) has failed to implement 
sufficient controls to ensure compliance with the Hatch Act. 
Exhaustive investigations by both the United States Postal 
Service Inspector General and the Office of Special Counsel 
have uncovered that the Postal Service's practice of approving 
leave without pay (LWOP) applications specifically requested by 
one of its seven unions violated agency policy and constituted 
an institutional and systemic violation of the Hatch Act.
    I want to thank the witnesses for appearing today so that 
all Federal Agencies can benefit from OSC and the IG's findings 
so that the USPS can chart a path forward. Both the OSC and the 
USPS Office of the Inspector General (OIG) conducted 
comprehensive reviews and identified findings and 
recommendations for bringing the Postal Service leave policy in 
compliance with the law.
    I want to thank Mr. Kopp for coming forward with the 
information that led to these investigations. It is possible 
these concerns would never have been brought to light without 
him coming forward.
    According to OSC's findings, the Postal Service problematic 
leave without pay practice for political activity has persisted 
for more than 20 years, a period spanning at least three 
Administrations, several different parties, and five 
Postmasters General. During that time frame, the National 
Association of Letter Carriers (NALC) has endorsed candidates 
of both parties and donated millions to both Republican and 
Democratic political campaigns and political action committees 
(PACs).
    As OSC's report noted, the Postal Service practice is 
emblematic of a systemic problem, not limited to one individual 
or one election cycle. The findings reached by OSC and the 
Inspector General demand immediate remedial action. While I 
find it shocking that the USPS practice has persisted for as 
long as it has, I am really encouraged that the United States 
Postal Service is now focused on charting a path forward under 
Postmaster General Brennan's leadership.
    United States Postal Service management has pledged to take 
corrective action to ensure the agency maintains a leave 
without pay policy that is compliant with the Hatch Act and 
addresses the concerns raised by these investigations.
    I look forward to working with OSC to ensure that other 
Federal Agencies throughout the Executive Branch abide by the 
lessons learned from this investigation and fully comply with 
the Hatch Act. I welcome any recommendations that OSC may have 
for Congress to improve enforcement of the Hatch Act across the 
government.
    This is the first hearing we have had in this Committee on 
our electoral process in the election of 2016. Protecting the 
integrity of our electoral process is critical to promoting 
confidence and participation in our democracy.
    In February, every Democratic Member of this Committee 
wrote to Chairman Johnson requesting that the Committee 
investigate and hold hearings on Russia's attempts to 
infiltrate and influence the U.S. Presidential election on 
November 8, 2016, by attacking the Nation's election 
infrastructure. The election infrastructure is part of the 
Department of Homeland Security (DHS) and lies squarely within 
the jurisdiction of this Committee. I will renew today the 
request of the Democrats on this Committee to have a public 
hearing on Russia's attempt to infiltrate and influence the 
U.S. Presidential election by attacking our Nation's election 
infrastructure and look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    Our tradition of this Committee is to swear in witnesses, 
so if you will all stand and raise your right hand? Do you 
swear that the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Kopp. I do.
    Mr. Siemer. I do.
    Mr. Miles. I do.
    Ms. Brennan. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Timm Kopp. Mr. Timm Kopp is a Postal 
Service letter carrier in Marshfield, Wisconsin, a particularly 
beautiful area of the State that has pretty good health care, 
as a matter of fact. I think it is safe to say that the 
Marshfield Clinic is a world-renowned health care center. Mr. 
Kopp first raised concerns about the Postal Service's leave 
practices surrounding the 2016 election. Mr. Kopp.

 TESTIMONY OF TIMM KOPP,\1\ LETTER CARRIER, U.S. POSTAL SERVICE

    Mr. Kopp. Good morning, everybody. First of all, I guess 
thank you for inviting me here. Like Senator Johnson said 
earlier, I never expected it to get to this point. Basically 
all I did is I wanted to raise concerns about things that I 
thought were not being done correctly.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kopp appears in the Appendix on 
page 28.
---------------------------------------------------------------------------
    I do not want to go back and go over all the things that I 
have submitted in my written testimony. That is kind of 
redundant to me.
    Looking back, I knew from the previous elections, while I 
was hired at the post office, that the union is always involved 
highly in political activities, and I did not want this to be a 
partisan thing by no regards. I wanted it to be a thing where 
the general public does not lose trust with the integrity of 
the post office. That is where I started with this, and that is 
where I am going to end with it. It is something that the 
general public needs to have the faith and trust in, and if 
somebody does not want to speak up on things, it is just not 
going to work that way.
    We were always given floor talks on the Hatch Act, and we 
were told, you cannot do things while you are working, using 
government resources for any type of political activities.
    The problem is in 2016 things seemed to be a little bit 
different. I had more experience carrying mail. I have been 
there for 10 years plus. And, I have also had 6 months as a 
supervisor, so that time to me was kind of valuable, because as 
a new employee you kind of see how things are done, but you do 
not want to step on toes. You do not want to be the one to come 
in and cause waves.
    As a city carrier, on that viewpoint, you are constantly 
under pressure for meeting times, getting back for schedules, 
keeping within the budget. So, they are always looking at 
keeping the overtime down, keeping labor costs down, and it is 
totally understandable. And, as a supervisor, looking at it 
from that standpoint, you are always getting emails; you are 
always getting phone calls on the performances of the people in 
your office. Things that could totally be unrelated to that 
cause overtime, that you always have to explain via emails, 
texts, or whatever to people explaining why this person was 
late, why this person did not make it, which is to some point 
understandable, but to some point it gets a little bit 
nitpicky, in my opinion.
    So, to see this happening when an employee comes in with a 
notice saying that he is to be off work for up to 5 weeks, 
giving 2 days' notice, not allowing the supervisor time to 
figure out how to fill those vacancies, there was no leeway at 
all. The supervisor wanted to say maybe, if we could let you 
off 3 days next week, a couple days off the week after, he was 
fine with that. It was that certain days we are short-staffed. 
We have people on vacation, other things come up. He even 
wanted to extend the Thursday leave and just give him 2 more 
days to try to cover things and put that employee off on 
Saturday, and that was per our local union contract. Once the 
schedule is up for that week, there is supposed to be no more 
changes unless for emergency reasons. And, that was shot down 
also. It was, ``This person needs to be off. He will be off in 
2 days regardless. The scheduling issues are of no concern to 
us.'' And, that is where it went.
    I also know the other local post office was already short-
staffed to begin with. I had dealt with them consistently as a 
supervisor, responding to emails, things on that order, phone 
calls that they need help, ``We need anybody that you can send 
us. It does not matter if they are a new person. If they do not 
know the city, it does not matter. We need help.''
    So, from that standpoint, I know that office was a lot 
worse off than the Marshfield office. And, from what I read in 
some of the reports, it is exactly what I kind of knew what was 
going on by talking to my supervisor. They were sometimes 
having late trucks, running penalty overtime, which is double 
time, things on that order.
    So, I had to work personally a few of my days off, which to 
me I am not really that thrilled about, but I also had to work 
many days late, and so did a lot of the other employees. And, 
that caused a lot of--not animosity but a few grumblings, just 
because of the reasons that these people were off, because the 
post office is not supposed to be politically biased, and 
people did not like the reasons that it was causing all this 
overtime.
    I thought I went through all the proper channels. I 
definitely did not expect to end up here. I started with my 
union officials, got nowhere. I went to the State union 
officials, basically got nowhere with them. I went to the 
national over in Minneapolis, that district office, and all I 
was told was basically, ``This is how it has been done for 
years. You do not need to question this. We are just trying to 
help preserve your job.''
    To me, I just want things done fairly. I do not want it 
done on a partisan issue. I want the post office to succeed for 
the long term and not just look to this election or a year down 
the road. I want it to be sustainable because there are a lot 
of employees that work there, and there are a lot of good 
employees there. But, the way that this was done, and from 
reading the other reports, it was just a nightmare. Thank you.
    Chairman Johnson. Thank you, Mr. Kopp. We really do 
appreciate your willingness to come forward. I think you did 
exactly the right thing. You followed the right channels.
    I would say one of the good news stories about this is 
that, from what we have heard, there was no retaliation, and we 
have seen in so many instances retaliation against people like 
Mr. Kopp. So, there is the good news story.
    Now I guess we will turn to our next witnesses, and we will 
see the bad news story of this, but then hopefully end up with 
the Postmaster General and talk about how cooperatively they 
are going to fix the problem.
    Our next witness is William Siemer. Mr. Siemer is the 
Acting Deputy Inspector General for the Postal Service's Office 
of Inspector General. Mr. Siemer joined the Office of Inspector 
General in 2003 and previously served in both the Secret 
Service and Air Force Office of Special Investigations. Mr. 
Siemer.

    TESTIMONY OF WILLIAM SIEMER,\1\ ACTING DEPUTY INSPECTOR 
 GENERAL, OFFICE OF THE INSPECTOR GENERAL, U.S. POSTAL SERVICE

    Mr. Siemer. Thank you, sir. Good morning, Chairman Johnson, 
Ranking Member McCaskill, and Members of the Committee. Thank 
you for inviting me to discuss our work on Postal employees' 
use of leave without pay for election campaigning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Siemer appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    During last year's election season, Mr. Kopp expressed 
concerns that certain mail carriers in Wisconsin were taking 
leave without pay to work for union political campaigns. He was 
concerned that the Postal Service was behaving in a partisan 
manner. He also complained the absences were causing 
operational problems, including additional overtime and an 
unfair distribution of work among employees who remained.
    As a result of that complaint, we investigated and provided 
our findings to the Office of Special Counsel to evaluate for 
potential Hatch Act violations. We also conducted an audit on 
the nationwide use of leave without pay for union campaign 
activities.
    We determined that, from September through November 2016, 
97 carriers took leave without pay to participate in partisan 
political campaigns for periods ranging from 4 to 50 days. In 
total, the employees took more than 2,700 days off. Eighty-two 
percent of this time was taken in six States: Florida, Nevada, 
North Carolina, Ohio, Pennsylvania, and Wisconsin. The carriers 
were associated with a single Postal union, the National 
Association of Letter Carriers.
    Our work found that local managers felt compelled to 
release the carriers for extended periods of time. Several 
managers initially attempted to deny the requests because of 
the impact on local operations, but higher-level labor 
relations or operations managers in the field directed them to 
release the carriers. All 97 carriers were ultimately released.
    The releases occurred because a Headquarters Labor 
Relations executive used his position and authority to send 
emails to local Labor Relations managers in the field 
announcing the release and requesting explanations for any 
carriers that were not released. Because of these and other 
communications, and the longstanding practice of allowing 
employees to participate in union political campaigns, field 
Labor Relations and Operations managers believed that releasing 
the employees was mandatory. This circumvented Postal Service 
policy and the ability of Operations supervisors to manage work 
at their local offices. Postal Service policy gives local 
installation heads the administrative discretion to approve 
leave without pay requests of less than a year. Employees make 
requests using a leave form, which supervisors approve or deny. 
Decisions are to be made based on the needs of the employee, 
the needs of the Postal Service, and the cost to the Postal 
Service.
    Local managers said the leave without pay caused 
operational problems such as increased overtime and delayed 
delivery of mail. In at least one office, the remaining 
carriers were required to work 6 days per week, including their 
normal scheduled days off. Some managers and employees also 
believed the releases were politically motivated.
    For our audit, we analyzed the absences of 22 of the 97 
carriers who took leave without pay across the country. In each 
instance, we examined the assignments that could have been 
covered if the carrier was working. According to our analysis, 
the use of leave without pay resulted in combined net overtime 
costs of more than $90,000 at the 22 facilities we reviewed.
    Throughout our work, we found that Postal Service 
management generally viewed allowing employees to take leave 
without pay for union campaign activities as a customary 
practice. They saw it as a necessary part of cultivating a good 
relationship with the union, even though releasing employees 
for union campaign activities is not required by the collective 
bargaining agreement.
    In our audit report issued on July 5, 2017, we recommended 
that the Postal Service follow its policy of assessing 
operational needs prior to granting leave without pay requests. 
We also recommended that Labor Relations and Operations improve 
communications to bring up any operational problems caused by 
employees taking time off for union activities. Postal Service 
management disagreed with the premise of our first 
recommendation and do not intend to implement it. They believe 
they followed their policy. We consider management's comments 
on this recommendation nonresponsive and will work to 
coordinate a resolution. The Postal Service plans to address 
the second recommendation by improving communications and 
undertaking an educational campaign about the collective 
bargaining agreement.
    Thank you for the opportunity to discuss our work, and I am 
happy to answer any questions.
    Chairman Johnson. Thank you, Mr. Siemer.
    I want to apologize to the witnesses. We have a vote 
called. I know we have already had you delay for our business 
meeting, but I think we are going to do this, quick call a 
recess, and then we will come back and continue with the 
testimony. Right now the Committee is in recess.
    [Recess.]
    The hearing will be recalled to order.
    Our next witness will be Adam Miles. Mr. Miles is the 
Acting Special Counsel of the Office of Special Counsel. Mr. 
Miles joined the Office of Special Counsel in 2011 and 
previously served as a staff member on the House Committee on 
Oversight and Government Reform. Mr. Miles.

 TESTIMONY OF ADAM MILES,\1\ ACTING SPECIAL COUNSEL, OFFICE OF 
                        SPECIAL COUNSEL

    Mr. Miles. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for the opportunity to testify about the 
U.S. Office of Special Counsel and our report regarding Hatch 
Act violations at the United States Postal Service. My 
testimony today will be relatively brief, but our full report 
on the Hatch Act issues is in the hearing record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miles appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    Chairman Johnson. And, by the way, everybody's full written 
testimony is included in the record.
    Mr. Miles. So, at the outset, I just want to thank Mr. 
Kopp. My Dad was a Postal worker for 32 years, and as a 
whistleblower protection agency, I know that you did not start 
out to be here, and I can promise you that my Dad would have 
never seen himself sitting in that chair. But you did the right 
thing, and I really appreciate that and just want to express 
gratitude for that.
    I also want to thank the OIG for the partnership throughout 
the investigative process and also the OSC staff who did such a 
bang-up job on this report--Carolyn Martorana, Louis Lopez, and 
Ana Galindo-Marrone--for their work. I think a lot of the 
factual information will mirror what the OIG said, and I think 
the consistency between these investigative findings sort of 
lays out a story that you all can understand and work to 
improve the situation.
    In 2016, Mr. Kopp submitted to Chairman Johnson information 
that he was concerned about, that the USPS incurred unnecessary 
overtime costs and improperly coordinated with the NALC when it 
released members for several weeks of union official leave 
without pay. So, after receiving a complaint from Chairman 
Johnson, OSC initiated an investigation to determine if these 
activities violated the Hatch Act, and we found that NALC 
identified certain letter carriers to participate in its 
campaign activities. NALC then sent the names of these carriers 
to a senior headquarters labor relations official, and this 
official then emailed the list of carriers to USPS officials at 
lower levels of management. And, these officials at the lower 
levels of the Postal Service interpreted the communications 
from headquarters as a directive to release the union members 
on union official leave without pay.
    So local supervisors, like you heard from Mr. Kopp, raised 
concerns about the impact that these releases would have on 
their operations in terms of overtime costs and mail delivery 
delays. But despite their objections, USPS managers instructed 
the local supervisors to release the carriers anyway.
    We concluded that the USPS practice of facilitating and 
directing carrier releases for the union's political activity 
and the use of union official leave without pay for such 
activity resulted in an institutional bias in favor of NALC's 
endorsed political candidates and that this violated the Hatch 
Act.
    To correct these systemic violations, we made two 
recommendations to USPS.
    First, we recommended that USPS management not require, 
direct, or suggest that local supervisors release union members 
to engage in political activity. We are asking them to take a 
hands-off approach to the political activity.
    The Postal unions and individual employees are permitted--I 
want to be clear about this, and the law, in fact, encourages 
them--to maintain PACs, endorse candidates, and enlist union 
members to support their electoral agendas on their own time. 
But USPS headquarters and labor relations managers should not 
enable a union's lawful political activity through official 
practices and directives that create institutional biases for 
certain candidates.
    Our second recommendation is, to ensure that it is 
administering its programs in a politically neutral manner, 
USPS should exclude political activity, as defined by the Hatch 
Act, from the acceptable uses of union official leave without 
pay. Our concern is that officially characterizing NALC's 
partisan political activity as ``union business'' affords this 
activity official advantages and benefits that should be 
reserved for other traditional union business, such as training 
and conferences.
    We have communicated these recommendations to the USPS, and 
the Postmaster General appears ready to take the steps 
necessary to comply with the Hatch Act, and that is very 
encouraging.
    A few important points as I conclude. While we determined 
that the USPS engaged in systemic violations of the Hatch Act, 
we did not determine that any USPS management officials helped 
NALC to identify or select carriers to participate in the 
campaign program. And, the evidence does not support a finding 
that USPS officials sought to assist NALC's favored candidates 
in achieving electoral success. Rather, the evidence suggests 
that USPS engaged in this practice to engender goodwill with 
the union. And, while that is a laudable goal, as a Federal 
entity, the USPS must remain politically neutral. Although the 
USPS is exempt from many other civil service laws, Congress 
chose specifically to ensure that USPS employees are covered by 
the Hatch Act's restrictions. And, a primary purpose of the 
Hatch Act is to promote public confidence in the nonpartisan 
administration of the laws by the Federal Government.
    In many localities, the Postal Service is a citizen's 
primary point of contact with the government, and this 
reinforces the need for the Postal Service to comply with both 
the letter and the spirit of the Hatch Act.
    Given these considerations, again, we are encouraged by the 
USPS' initial response to our recommendations. We believe the 
USPS is committed to ensuring full compliance with the Hatch 
Act, while also allowing its employees to participate fully in 
the political process to the extent permitted by law.
    I thank you for the opportunity to testify and look forward 
to your questions.
    Chairman Johnson. Thank you, Mr. Miles.
    Our final witness is the Honorable Megan J. Brennan. Ms. 
Brennan is the 74th Postmaster General and the Chief Executive 
Officer (CEO) of the United States Postal Service. Postmaster 
General Brennan began her career as a letter carrier in 
Lancaster, Pennsylvania. Madam Postmaster.

  TESTIMONY OF THE HONORABLE MEGAN J. BRENNAN,\1\ POSTMASTER 
    GENERAL AND CHIEF EXECUTIVE OFFICER, U.S. POSTAL SERVICE

    Ms. Brennan. Thank you. Good morning, Chairman Johnson, 
Ranking Member McCaskill, and Members of the Committee. I am 
pleased to represent the 640,000 hardworking and dedicated men 
and women of the United States Postal Service, individuals like 
Mr. Kopp, and I would like to thank him for his service and 
thank him for his testimony here today. These men and women 
play a vital role in every American community every day.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brennan appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    Last Friday, the Postal Service received the Office of 
Special Counsel report concerning a Hatch Act investigation. 
The OSC determined that a longstanding practice of the Postal 
Service violates the Hatch Act by enabling union political 
activity.
    In order to prevent any future violations of the Hatch Act, 
I want to give this Committee my complete and unconditional 
commitment that the United States Postal Service fully accepts 
and will fully implement all of the recommendations and 
directions of the OSC.
    In response to the initial allegations that prompted the 
OSC's investigation, I can say without any reservation or 
qualification that senior postal leadership, including myself, 
did not in any way guide union leadership in selecting the 
candidates for whom Postal union employees could campaign, did 
not approve or choose candidates for the unions to support, and 
did not ask the union to advocate for political candidates on 
behalf of the Postal Service. Neither the United States Postal 
Service Office of Inspector General nor the OSC found any 
evidence to the contrary.
    Furthermore, with respect to the leave without pay practice 
that violated the Hatch Act, the OSC found that the violation 
was not intentional and that it was not motivated by any desire 
to support or oppose a particular party or candidate.
    In its report, the OSC recommends that the Postal Service 
take certain affirmative steps to prevent future Hatch Act 
violations.
    First, to ensure that we are administering our programs in 
a politically neutral manner, the OSC directs that the Postal 
Service exclude political activity, as defined by the Hatch 
Act, from the acceptable uses of leave without pay for official 
union leave. The Postal Service accepts this direction, and we 
will implement this change to ensure that we do not put our 
people in harm's way and they do not unintentionally run afoul 
of the Hatch Act.
    Second, the OSC recommends that the Postal Service should 
implement a hands-off approach to a union's political activity. 
The Postal Service likewise accepts this recommendation, and we 
will implement this change. The Postal Service will work with 
the OSC to design corrective measures by its August 31, 2017, 
deadline.
    Further, in light of the concerns that have been raised and 
in view of the OSC's determinations here, the Postal Service 
will expand its communications efforts on the Hatch Act. We 
will also educate our employees about the changes that we make 
to our current leave without pay practices.
    Mr. Chairman, the United States Postal Service delivers for 
the American public--both literally and figuratively. We will 
continue to safeguard America's trust in the Postal Service. We 
take these responsibilities seriously, and we will fully comply 
with the OSC's recommendations and directions.
    Thank you, Chairman Johnson, Ranking Member McCaskill, and 
Members of the Committee, for the opportunity to testify today. 
I welcome any questions that you may have.
    Chairman Johnson. Well, thank you, Madam Postmaster 
General.
    As I am preparing for this hearing here and reading through 
all the testimony and reading something that the systemic 
violation of the Hatch Act covering multiple elections, and 
then you get further down into the reports, but it was nobody's 
fault. There is nobody that needs to be disciplined. I mean, 
you kind of have to scratch your head, going, ``How can you 
have such a longstanding systemic violation of the Hatch Act 
and yet nobody is really held accountable?''
    Why was it systemic? Why did it go on for so long? I will 
just ask Mr. Siemer first.
    Mr. Siemer. During our investigation it seemed that it was 
adopted just as a practice where nobody was really looking at 
it through the lens of is this appropriate or not. So, I do not 
believe anybody questioned in the labor relations headquarters 
office whether or not what they were doing was wrong. And then, 
once the communications went down to the field, the culture and 
the practice is that it is mandatory, it is directive.
    So, I am not sure there was any analysis given to whether 
or not what they were doing should be done based on our 
investigation.
    Chairman Johnson. Mr. Miles, what is your kind of 
explanation for that?
    Mr. Miles. So, one answer is that nobody was as brave as 
Mr. Kopp was over the years. I mean, I think that people did 
raise operational concerns, but nobody sort of stood up and 
spoke out in the way that he did, brought it to the attention 
to you, gave us the opportunity to take a look at it.
    And, again, there was a senior labor relations official at 
headquarters that sent an email directing the lower-level 
officials to 
enable the union political activity. But, the followup, 
everybody got in line down the chain to sort of implement that 
directive, and that is why we were looking at it more as an 
institutional violation versus pinning the blame on one 
individual or another.
    Chairman Johnson. It was also very obvious which candidates 
the union supported, correct? There was no secret there. It was 
not like this was unknown to the Postal Service management.
    Mr. Miles. That is correct. And, that is part of analysis, 
too, that even if the managers were not to help or hurt a 
particular candidate, they knew that their intent was to enable 
the political activity by NALC, and their chosen candidates 
were public.
    Chairman Johnson. And, they knew there was pushback from 
supervisors because Mr. Kopp testified that they were really 
hampering their ability to design their schedules, and it was 
going to cost overtime, and it was going to inconvenience other 
Postal employees who may have been for the other candidate. 
Those individuals were going to have to work the overtime. They 
were going to have to cancel their vacation because these 
individuals who were going to go to work for known candidates 
of one political party that was pretty well being imposed upon 
them by Postal Service management?
    Mr. Miles. That is correct. And, sort of the disparate 
impact of this is what bothered us in large part. Again, if 
NALC, sort of the institutional advantages that come with a 
union official request for leave without pay, that one is going 
to get approved. But, if somebody else just wants to go to 
their boss and ask for permission to go on leave, now the slots 
are already taken. So if I am a Green Party supporter, if I am 
a Republican Party supporter, I do not get to go do this work. 
And, that creates the disparate impact that we were concerned 
about.
    Chairman Johnson. Again, that was very obvious, that if you 
wanted to go to work for a different--a non-endorsed candidate, 
you were not going to get the time off.
    Mr. Miles. That is right.
    Chairman Johnson. You were certainly not going to be 
supported by Postal Service management to make sure that, no, 
give that Postal worker time off without pay.
    Madam Postmaster General, in your written testimony, I will 
quote, ``the evidence simply does not support any allegation 
that any Postal Service officials sought to assist the NALC's 
favored candidates.'' But on page 20 of the OSC, to quote their 
report, ``only carriers who wanted to campaign for NALC's 
endorsed candidates were given the opportunity to take several 
weeks of leave on short notice, over the objections of local 
supervisors who raised concerns about potential operational 
impact.''
    Again, it was no secret what the Postal union was trying to 
accomplish, who they were endorsing, and as Mr. Miles stated, 
if you were going to leave to campaign for somebody else, you 
were not going to get that leave. I am kind of scratching my 
head on the fact that you are saying that there was no Postal 
Service official sought to assist NALC. It seems like you 
people in the Postal Service fully supported and assisted the 
NALC in their effort.
    Ms. Brennan. Mr. Chairman, some context. Ninety-two percent 
of our employees are covered by collective bargaining 
agreements by law. We are a human organization. It is in our 
interest to maintain and foster good working relationships with 
the union.
    What transpired here was a longstanding practice that was 
accepted, that expanded the definition of ``union leave'' to 
``union leave for political activity.'' As noted, this was a 
case of first impression for the OSC. We fully accept and will 
fully implement their recommendations and directions, and we 
will no longer permit leave without pay for union political 
activity.
    Chairman Johnson. Obviously, one of the reasons we are 
holding this hearing is to make sure that we highlight this so 
that other Agencies, other departments, have not followed--if 
they have followed the same track, they can also take 
corrective action. I will just ask both Mr. Siemer and Mr. 
Miles, are you aware of any other Agencies? Just in your work 
now that this has been publicized, has anybody come to you, any 
other Offices of Inspector General? Obviously, with the Special 
Counsel, you might have access to oversight of other agencies. 
Are you aware of this occurring anyplace else throughout the 
Federal Government?
    Mr. Siemer. I am not aware of that, sir.
    Mr. Miles. No, we have not heard any similar allegations.
    Chairman Johnson. OK. Well, again, I appreciate all your 
testimony, and I will turn it over to Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I think it is terrific that we have uncovered this problem. 
I think it is even better--as a former auditor, I can tell you 
that one of the most pleasant experiences you have as an 
auditor is when the organization that is being investigated and 
looked at, they can do one of two things: they can circle the 
wagons and argue with you, or they can say, ``Hey, thank you. 
You have pointed out a problem, and we are going to fix it.'' I 
am really pleased, Ms. Brennan, that you fall in the latter 
category, that you have looked at this issue and said, ``We are 
going to fix this.'' And, I assume that both you, Mr. Siemer, 
and you, Mr. Miles, have no criticism about how they have 
handled your recommendations or their commitment for going 
forward with your recommendations.
    Mr. Miles. No, we have none and are really encouraged by it 
as well.
    Mr. Siemer. We have not had a chance to follow up with the 
Postal Service yet based on the findings in our report. 
Initially, they did not agree with one of our recommendations 
or the financial impact. But, since they have received the 
OSC's information, we would like to talk to them about what 
they are going to do to address OSC's findings.
    Senator McCaskill. And, when you are speaking of financial 
impact, I am not aware--and maybe there is information that we 
have not had a chance to look at, but was there any final 
analysis as to what the set-off was in--because these people 
took leave without pay. Correct?
    Mr. Siemer. Yes, ma'am.
    Senator McCaskill. So, the Postal Service did not pay them 
while they were gone.
    Mr. Siemer. Yes, ma'am.
    Senator McCaskill. Was there any attempt to set off what 
the overtime costs versus what the pay was that the agency 
saved by them taking these days of unpaid leave?
    Mr. Siemer. Our auditors evaluated the days where those 
carriers were not present in the office to calculate how much 
overtime and additional costs were expended to cover the 
activities those carriers would have covered. So, that is where 
the financial impact that we estimated came from.
    Senator McCaskill. Yes, but you did not do a set-off?
    Mr. Siemer. No, ma'am.
    Senator McCaskill. A business analysis would require--this 
is the auditor in me coming out. A business analysis would 
require that you would set off the overtime cost against the 
saved salaries that were not paid for those days. That did not 
occur, correct?
    Mr. Siemer. Let me clarify. I do not know if a set-off 
occurred. I am not aware of that. I can get that information 
for you afterwards. I just know how we calculated the 
additional overtime costs that were incurred as a result of 
their departure, but----
    Senator McCaskill. Yes, but you did not calculate the money 
saved by these people leaving without pay.
    Mr. Siemer. I do not know the answer to that, ma'am.
    Senator McCaskill. OK. That would be important for us to 
know whether or not this was a net loss to USPS or whether it 
was a net gain to USPS.
    Mr. Siemer. Yes, ma'am.
    Senator McCaskill. It would depend on how much the overtime 
was compared to the level of salaries that the people had that 
left and whether or not there was temporary work. I think the 
temporary work is like $10 an hour. So, I do not know that I 
need you to spend a lot of time doing that. I just think it is 
important to point out that we do not know at this point in 
time whether it was a gain or a loss.
    Mr. Kopp, I want to thank you. I know the Chairman 
mentioned it, but this is really important to us--that you 
state on the record today whether or not you believe you have 
been retaliated against for you coming forward.
    Mr. Kopp. Yes. No, nobody has said anything, done anything. 
That was absolutely a concern because I still need to work at 
this organization, and I did not want to have to deal with 
that. But, I have had no issues at all.
    Senator McCaskill. That is terrific news. Will you make 
sure that you let Chairman Johnson or my office know if that 
changes in any regard?
    Mr. Kopp. Absolutely.
    Senator McCaskill. Because we are anxious to protect you.
    Mr. Kopp. Yes.
    Senator McCaskill. In this Committee we depend on people 
coming forward and telling us about problems, and so we want to 
make sure that they are fully protected.
    I know this is on the Hatch Act, but I am really worried 
about Postal reform. And, I think that in the grand scheme of 
things--while I certainly agree that this hearing is important 
and enforcing the Hatch Act is important, in the grand scheme 
of things getting the Postal reform across the finish line is 
much more important, Mr. Kopp, to the future of your job than 
this hearing. And, I want to make sure that I ask at least one 
question on that.
    Ms. Brennan, are you feeling optimistic about the progress 
that is being made in the House? We have not had a bill 
introduced over here yet. I know that Senator Carper is still 
working on it. But, I know the Medicare integration has proved 
a little thorny over there. I have been trying to follow it 
closely. I care very much about it.
    What is your assessment of where we stand right now? And, 
are you optimistic or pessimistic that we can find the 
political will around here to do the basics when it comes to 
Postal reform in terms of putting it on a more sound financial 
path going forward?
    Ms. Brennan. Senator McCaskill, I am optimistic. Three 
months into the new session, we had a bill with bipartisan 
support voted out of Committee, H.R. 756. However, given some 
of the other public policy issues and the change in Chair, 
there has been some transition in the House.
    We do recognize that the Medicare integration issue, which 
is a cornerstone and key to our legislative ask, is an issue 
that is yet to be resolved. We are looking to meet with 
Chairman Brady to address that issue, but the need for Postal 
reform is urgent. Our financial condition is worsening. We will 
end this fiscal year (FY) with a projected $3.2 billion net 
loss. The volume declines are continuing. We will see roughly a 
4-billion-piece decline this year.
    So, we are in a position that we need this reform, we need 
to stable our finances. The Postal Service is committed to 
taking the appropriate actions to respond to the latent 
capacity in our system, the change in the mail mix to drive 
operating efficiency, but we need legislative support.
    And, if I may just for a moment, to your comment and 
question to Mr. Kopp, you have our assurances. There will be no 
recriminatory action. In fact, as noted, we appreciate him 
coming forward. I spoke with him at the recess and actually am 
trying to recruit him into management. [Laughter.]
    Senator McCaskill. There you go. And, I do know that 
Senator Carper, to his great credit, has found a way to pay for 
the hit to Medicare, but his idea seems to be struggling for 
momentum. If you have any ideas on how we can do more on this 
side to push our House colleagues--I know if they get a bill 
out over there, I am confident that the Chairman will want to 
move forward because it is time to get Postal reform done. I 
should not speak for him. He can probably speak for himself 
much better than I could speak for him. But, I thought I would 
give it a shot, anyway.
    Ms. Brennan. Well, thank you. And, I look forward to 
meeting with both of you and to advancing Postal reform. Thank 
you.
    Senator McCaskill. Thank you very much.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, thank you.
    So, let me run through a series of questions to try to be 
able to set the context. We have 97 Postal employees that took 
time off, unpaid leave for them to be able to do political 
activities, but that caused other Postal employees to have to 
do additional overtime, some of them involuntarily, at greater 
cost to the Postal Service because of that, and so the 
appearance is it is an offset. The Postal Service was assisting 
in some ways the political activities. Though those individuals 
were not receiving compensation, the Postal Service was having 
to pay more for those individuals to be able to take on 
political activities. Is that correct or not correct?
    Mr. Siemer. That is correct.
    Senator Lankford. So, let me ask this question then: 
According to the OIG's report when it came out, a Postal 
Service labor 
relations manager sent an email out, and the email says it 
limits--well, let me just say it this way: The names, it says, 
of the individuals, the names were approved at the highest 
level of USPS management. The endorsed candidates have proven 
themselves to be in agreement with the objectives to the NALC 
to hold and strengthen and protect USPS. That really is the 
nature of what we are doing. Since the USPS cannot advocate for 
themselves, they are allowing us to do it.
    So, through that email--let me ask a couple of questions on 
that. Where did that email take you in the investigation to be 
able to have an email like that?
    Mr. Siemer. So, we talked to the author of that email, and 
he backed off on the assertion that the Postal Service senior 
management was involved in selecting the candidates or directly 
being involved in the political activities. He meant that the 
Postal Service had, he believed, some common interests in 
having friendly politicians involved in being in place to 
support Postal Service priorities.
    Senator Lankford. So, was there any other investigation or 
any other tracking of what he meant by the statement, ``the 
highest levels of USPS approved this''?
    Mr. Siemer. He was not aware of anybody in the highest 
levels of management being involved in this initiative.
    Senator Lankford. So, that was just a lie?
    Mr. Siemer. Yes.
    Senator Lankford. So, was there any way to be able to 
validate that, whether it is a lie or whether it was true?
    To be able to back up--obviously, he has already put one 
lie out there then. Is there any way to be able to substantiate 
that or not substantiate that, any investigation on other email 
chains or any other conversations over there?
    Mr. Siemer. So, we evaluated all the emails between senior 
Postal management, and we did interviews. There was no evidence 
to suggest that senior Postal officials were involved in this 
election or identification of either carriers or candidates.
    Senator Lankford. Where would he get the impression, 
``Since the USPS cannot advocate for themselves, they are 
allowing us to do it''?
    Mr. Siemer. I have no idea.
    Mr. Miles. So, we talked to that gentleman, too, and he did 
the same; he backed off of sort of the core allegations in that 
email. But, to put it in a context, how we would look at it is 
that what he said is he was not in a position to know what USPS 
senior management knew or did not know. But, I think I would go 
back to Mr. Kopp's statement. What that email did was it sort 
of reinforced the perception that existed--right?--because of 
this leave without pay program, that folks sort of in the field 
and folks at a local level thought that USPS management was 
supporting and enabling this activity.
    So, we have sort of an actual technical violation with the 
emails that are being sent from headquarters, but then we have 
this perception that goes against what Mr. Kopp was saying. We 
want the USPS to be operating in an independent, nonpartisan 
manner. But, when you have folks sort of up and down the chain 
believing that there is this institutional bias in favor of 
certain candidates, then we should recommend and take steps 
backward to avoid that perception. And, that is why I think 
that we are encouraged with the USPS reaction to our 
recommendations. It will alleviate that perception and that 
perceived bias and the actual bias that we found.
    Senator Lankford. Yes, there is no question, any individual 
can vote however they choose to vote. They can engage in those 
conversations. They are American citizens. These are great 
Federal employees and members and workers of the USPS. There is 
no angst there.
    What I am trying to figure out is this has every appearance 
that not only this is longstanding but that it was the 
assumption: ``Of course, we are going to go take down Senate 
candidates. We do not have a voice, and we do not like what 
they are doing, so why we would not try to flip the Senate to 
be able to change the reality of what is happening there?''
    When they put out a word like this, that is a pretty clear 
statement, and it looks like a pretty clear perception of what 
was happening. When you can read even the materials that came 
out from the union as well, it was pretty clear it was 
constantly reinforcing this. And, when supervisors get the 
message, ``No, you have to let these people off because they 
are working for us,'' or, ``We are doing what we are doing 
because the management cannot do it, and so we are going to do 
it for them,'' that is a pretty clear political operation, 
quite frankly.
    Mr. Miles. Yes, we agree.
    Mr. Siemer. The only thing I would just follow up on, sir, 
is the author of that email was not the only Postal manager 
that believed the decision was partisan. There were four other 
managers in our investigation that told us that they believed 
the decision to release these carriers, they believed from 
their perspective that it had to be politically motivated. But, 
again, we found no evidence that that was actually the case. It 
was just their belief from where they were sitting.
    Senator Lankford. So, the statement has been made by OIG 
and by Office of Special Counsel that this was not an 
individual violation of the Hatch Act, though there have been 
Postal employees in the past that have run for office and have 
been found in violation of the Hatch Act, but this was not a 
Hatch Act violation, but institutionally there was an issue 
with that. How do I deal with institutionally there is a 
problem other than statements? Then who do we interact with as 
a Committee to say is this fixed, is this not fixed? I 
understand the Office of Special Counsel, the IG's office. 
Where do I go?
    Ms. Brennan. If I may, Senator Lankford, the OSC's 
determination, we are bound by that. So, we have a work group 
of our General Counsel, our lawyers. We will work with them to 
ensure the countermeasures we put in place, including ending 
the practice of approving leave without pay for union political 
activity, ends and we are consistent with their recommendations 
and direction.
    Senator Lankford. OK. So, who would be to be able to come 
back to you to be able to help confirm, be able to track this 
through as far as processing in the days ahead?
    Ms. Brennan. I would take responsibility for that, and 
certainly with the OSC's recommendation and concurrence that we 
did follow the letter of their intent.
    Senator Lankford. OK. Were there any individuals in the 
investigation that were determined--they asked for leave but 
they wanted to help the wrong party or the wrong task and so 
they were not given leave?
    Mr. Siemer. No, not that I am aware of.
    Mr. Miles. We did not hear from anyone.
    Senator Lankford. Good. Because, again, if individuals were 
taking off to get a chance to participate, they should be able 
to participate. The challenge is here it was clear that there 
was a direction here that cost the USPS, which is obviously 
struggling financially. That is one of the things that we talk 
about here consistently on what to be able to do, that we have 
to be able to resolve that and not have additional burden.
    So, Mr. Kopp, in stepping up as a whistleblower, an 
exceptionally difficult thing to do around your peers and in 
the task. I appreciate you stepping up to do it. We try to be 
able to encourage every individual to be able to work through 
the right process, as you did through this. Your response was 
not to call Members of Congress and find ways to be able to 
expose all this. You tried to work through the chain and to be 
able to do it appropriately, and I appreciate anyone who wants 
to be able to do that. And, quite frankly, not just about 
political activities but about whatever it may be.
    We all are taxpayers as well as people that serve for the 
Federal Government. Just about everybody in this room serves 
for the taxpayer. But we are also taxpayers, and so we are all 
trying to be attentive to that. So, I appreciate any Federal 
employee stepping up, anyone trying to do that. So, thanks for 
that.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    Mr. Kopp, let me echo the sentiments of almost everyone 
here. It is not easy to be plopped in the middle of Washington, 
D.C., in a big hearing room and tell your story. But, I bet you 
it was not easy to step up and do the right thing, and so I 
want to tell you how much we appreciate that. I want to 
appreciate the professionalism of the investigation and the 
professionalism of the response from the United States Postal 
Service.
    This is a can-do story, and hopefully this hearing will 
provide and illuminate this kind of issue going forward for 
other agencies. And so, I appreciate the way the Chairman has 
handled it and the way the Ranking Member has handled it.
    But, I want to build on Senator McCaskill's line of 
reasoning. I continue to be deeply concerned about the lack of 
systemic reform within the Postal Service. I think it has had a 
very negative effect on service, and ultimately, we sit here as 
a board of directors, almost, but yet you are not getting the 
direction and you are not getting the reforms that you need to 
continue to make the post office viable into the future. And 
so, as somebody who represents a rural community that is deeply 
dependent, as you see in the Government Accountability Office 
(GAO) reports, on mail service delivery, we continue to be 
concerned.
    I want to raise another issue, which I think actually adds 
to the concern that I have about oversight and the ability to 
do hearings like this, and that is that we do not have a Board 
of Governors (BOG). Right?
    Ms. Brennan. That is correct.
    Senator Heitkamp. This should concern all of us. And, since 
there is no confirmed Governors, none at this time, they could 
not be part of this investigation. So, for you, probably, 
Megan, how might a fully functioning or at least partially 
functioning Board of Governors have been helpful through this 
process from an accountability perspective?
    Ms. Brennan. Thank you, Senator Heitkamp. Clearly, we are 
best served having a fully constituted board comprised of 
individuals with different perspectives, different backgrounds 
to provide oversight, strategic direction. It would be helpful 
to have a sounding board, and I would respectfully ask, in 
addition to Postal reform, that as the Administration nominates 
Postal Governors that we move apace to confirm them. That would 
go a long way in positioning the organization.
    Senator Heitkamp. Where are we? Have you heard anything 
from the White House in terms of nominees?
    Ms. Brennan. Yes. The information we have is that there are 
a number of individuals that are currently being vetted and 
that the process is moving forward. So, we are optimistic that 
potentially as early as the fall we may have a number of seated 
Governors.
    Senator Heitkamp. I do not think there is any doubt that we 
have failed in our oversight responsibility and our management 
responsibility of the post office.
    I want to make the point that there are 650,000 Federal 
employees, employees who we have trust and faith in, especially 
people in rural areas who build relationships with the people 
they serve. When several employees, including supervisors and 
area operation managers, realized that allowing this number of 
letter carriers to take leave would have a sizable impact, 
obviously, on the day-to-day operations, that is--I mean, we 
can all see how this could get completely out of hand if we 
were not taking a look at it. And so, I want to applaud you, 
Megan, for all the work that you are attempting to do.
    When you look at your testimony, you note the importance of 
ensuring that Postal employees are further educated about the 
Hatch Act, and as a way to prevent future violations, how do 
you plan on communicating that as a preventive method? The post 
office has led the way on some of the follow up to the IG 
reports. I think you could also be an example of what other 
Agencies could do. So, tell us about that heightened education 
that you plan on undertaking.
    Ms. Brennan. Yes, Senator Heitkamp. A number of different 
mediums that we use. We utilize oral, written, digital 
communications to employees in the workplace, to their home. We 
utilize scrolls on our advanced computing systems to educate 
them. We use what we call ``smart business moments,'' which is 
really just common sense to protect employees and ensure that 
we abide by all Postal policies and procedures.
    So, there will be a number of venues we will do. I will do 
videos. We will do stand-up talks in the workplace environment. 
And, I think we were effective in expanding that information 
prior to the 2016 election. We need to do that and ensure that 
cascades down throughout the workforce.
    Senator Heitkamp. I get what you are saying about the 
methods. What about the message? That is what I am saying.
    Ms. Brennan. Oh, the message. I apologize.
    Senator Heitkamp. No. That is OK.
    Ms. Brennan. And it was interesting because Mr. Kopp 
mentioned that right at the outset. As Postal employees, we 
pride ourselves on being the most trusted Government Agency. 
And, we are nonpartisan; we are independent; we are apolitical. 
We need to maintain that trust that the American public has in 
us. That is a competitive advantage.
    Senator Heitkamp. And, maybe I am just not making myself 
all that clear, because a lot of times when you have a lot of 
this message, it is like, ``Here we go again.'' It does not 
sink in. And, obviously, as I understand this situation, this 
is not a new problem. This has been going on. This has been 
something that has happened year to year and just been accepted 
until Mr. Kopp came forward and raised the awareness, which led 
to all this investigation and all this follow-through.
    So, what part of the messaging are you delivering, what 
kind of message are you delivering to say there has been a 
change, that attitude that we have had in the past is not what 
we are doing now?
    Ms. Brennan. Well, we will certainly communicate that that 
longstanding practice of expanding the definition of ``union 
business'' to include union political activity cannot continue, 
will not continue, that we will abide by the OSC's 
recommendations and directions. And, we need to be clear that, 
again, it goes back to the trust that the American people have 
in the Postal Service. While we are a microcosm of society with 
640,000 employees, we are a trusted Federal agency.
    And so, I will emphasize the importance of this, that this 
was a Hatch Act violation and, frankly, to be labeled as 
``institutional bias'' and a ``systemic violation'' to me is 
pretty damning. And so, I will ensure that that is communicated 
and that is heard throughout this organization.
    Senator Heitkamp. Again, just to reiterate, we need to get 
Postal reform done because these things, they all land in your 
lap, and you are there alone. And, this needs to be fixed, and 
we need to have better opportunities for oversight and 
accountability on service standards, on a whole host of issues. 
And, I want to thank you and your staff. You have been 
extraordinarily gracious to my staff and to me personally in 
responding to our concerns. But, we have to get this done. And, 
it is a bit of business that should be easy, but it is not. And 
so, thank you, and I thank all of you, especially you, Mr. 
Kopp, for your courage and for your commitment to the 
institution that you work for, which is really by extension the 
taxpayers of this country.
    Thank you.
    Chairman Johnson. Thank you, Senator Heitkamp.
    One of the reasons it is difficult is because we are 
talking tens, hundreds of billions of dollars, and I appreciate 
your line of questioning because, as it is in the report, 
``systemic violations,'' and, Madam Postmaster General, you 
just said ``institutional bias.'' In my mind, I was kind of 
thinking ``cultural bias,'' and I think that is an 
institutional problem. I think that is one of the things that 
this hearing has certainly brought to the fore and that is 
something that I think really does need to be corrected.
    I am completely on board and I think this Committee has 
done a good job under the previous Administration and this one, 
when we have nominees before us, we will do our work and report 
those to the Senate. The Senate is going to have to do its 
work. News reports said that at the same point in time in the 
Obama administration, 69 percent of nominees had been 
confirmed. The Trump administration is 23. So, if you would 
help us in terms of working with your colleagues to not make us 
burn the full clock on all these nominations so we can actually 
staff the Administration, we can work together on that. And, 
Senator McCaskill, I think you would like to say something.
    Senator McCaskill. Yes, I think we are moving to that point 
because I think we are really more protesting the fact that 
there had been no hearings or no regular order----
    Chairman Johnson. I am offering you hearings.
    Senator McCaskill. I know. No regular order on the health 
care issue, and we were struggling with a way to communicate 
how frustrated we were that we were being shut out of a really 
important process. But, I can tell you I think that there is a 
lot of discussion ongoing now that that is going to stop. But, 
we cannot confirm until we have nominees.
    Chairman Johnson. I understand.
    Senator McCaskill. And, that is another problem we have 
had.
    Chairman Johnson. There is a pretty good backlog. Let us 
really end it on a bipartisan note. We are going to work 
together----
    Senator McCaskill. We agree that we need to have more 
nominees confirmed and more nominees.
    Chairman Johnson. We will. And, we will work together on 
this, health care, hearings and laying out reality.
    So, again, I want to thank Mr. Kopp, you possibly have an 
opportunity. That will be interesting if we see some 
promotional opportunities come out of this hearing as well to 
reward your courage but just your managerial skill as well.
    I want to thank all the witnesses. In the end, again, this 
was highlighting a problem, but in many respects a real good 
news story: no retaliation, total cooperation between the 
Postal Service and the Inspector General and the Office of 
Special Counsel. This is the way this process should work. I 
just want to thank all the witnesses.
    The hearing record will remain open for 15 days, until 
August 3rd at 5 p.m., for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
